           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  HEARING OFFICE REMAND PROCESSING


    September 2008   A-12-08-28036




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 29, 2008                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Hearing Office Remand Processing (A-12-08-28036)


           OBJECTIVE
           Our objective was to determine whether hearing offices were properly tracking and
           timely processing remands, as required by the Social Security Administration's (SSA)
           policies and procedures.

           BACKGROUND

           The Office of Disability Adjudication and Review (ODAR) administers the hearings and
           appeals program for SSA. Administrative law judges (ALJ) conduct hearings and issue
           decisions. The hearing process begins after an applicant for benefits has been denied
           at the initial and reconsideration levels by a disability determination service. The next
           step in the appeals process is a hearing before an ALJ. A claimant who is dissatisfied
           with an ALJ decision on his or her claim may request that SSA’s Appeals Council (AC)
           review the decision. The AC, which grants a request for review or reviews a case on its
           own, may issue a decision, dismiss the request for hearing, or remand the case to an
           ALJ for further development and proceedings. If the claimant is dissatisfied with the AC
           action, the claimant may seek a review of the case by a Federal district court. When
           the court remands a case to the Commissioner of Social Security, the remand is sent to
           the AC. The AC subsequently remands the case to an ALJ.

           Remands represent the reworking of an initial hearing, often because the ALJ applied
           the wrong law, additional claimant or other witness testimony is needed and/or an issue
           was not properly developed. 1 Remands generally go back to the ALJ who decided the
           initial hearing, and the ALJ will generally address the AC and/or court’s comments, hold




           1
             Other reasons claims are remanded include (1) the claimant did not receive a fair hearing, (2) the ALJ
           issued a decision on the record but testimony is needed, (3) evidence from an expert is needed or (4) the
           ALJ’s decisional rationale is insufficient. SSA Hearings, Appeals and Litigation Law (HALLEX) manual,
           I-3-7-1: General.
Page 2 - The Commissioner


a new hearing and issue a new decision. Hearing offices are instructed to treat
remands as a high priority workload. ODAR’s HALLEX manual instructs hearing offices
                                             2
to flag remands and assign them immediately.

Hearing Office Productivity

Hearing office dispositions and processing time are SSA’s key criteria for analyzing
hearing office performance. ODAR uses the electronic Key Workload Indicator (eKWI)
report to compile the total number of AC and court remands processed quarterly and
annually.
                 3
All dispositions, including remands, are included in SSA’s Number of Hearings
Processed performance indicator. 4 In Fiscal Year (FY) 2007, ODAR processed
approximately 550,000 dispositions with about 34,700 (6.3 percent) of those
dispositions being remands; approximately 27,000 from the AC and 7,700 from Federal
        5                         6
courts. Remand processing time is also included in SSA’s National Hearings Average
Processing Time performance indicator. In FY 2007, SSA’s National Hearings Average
Processing Time was 512 days for all dispositions.

Using ODAR’s Case Processing and Management System (CPMS), we reviewed
closed remands for FYs 2005 to 2007 to determine whether ODAR had sufficient
controls in place to properly track and timely process remands. We also reviewed
ODAR’s eKWI reports, Chief ALJ reminders, CPMS management reports and training
manuals regarding the processing of remand claims. 7

RESULTS OF REVIEW

We found that ODAR accurately tracked the number of remands processed nationally.
Remand dispositions vary among regions and hearing offices. For example, at
two hearing offices, the remands represented more than 15 percent of their entire
dispositions in FY 2007. We also found that the average processing time for remands
was lower than the processing time for all dispositions, indicating remands were being
given priority. Given the size and impact of the remand dispositions, we believe the
2
    SSA, HALLEX I-2-1-55: Assignment of Service Area Cases to Administrative Law Judge, section D.
3
  According to SSA, dispositions are defined as the number of hearing requests processed, including
favorable and unfavorable decisions issued, as well as requests that are dismissed.
4
    Performance indicators are published in SSA’s annual Performance and Accountability Report.
5
 Only a portion of the cases appealed are remanded. For example, of the approximately 90,000 AC
dispositions in FY 2007, about 23,500 claims were remanded to the hearing offices.
6
  According to SSA, processing time for initial claims is defined as the elapsed time, from the Initial
Hearing Request Date until the Disposition Date. Remand processing time is defined as the date of the
remand order (Remand Date) until the Disposition Date.
7
    See Appendix B for a further discussion of our Scope and Methodology.
Page 3 - The Commissioner


Agency’s performance indicators could better differentiate between initial hearings and
remands and more accurately portray SSA’s hearing dispositions. We also found that
not all remands were being given priority treatment. For example, we found
approximately 2,100 remands in the Commissioner’s Reduced Aged Claim initiative
with over 1,000 days of processing time.

Finally, we found that the remand information in CPMS contained incorrect processing
dates for approximately 87 percent of the hearing offices. While date-coding errors
have declined in recent years, additional training may be necessary at hearing offices.
In addition, SSA could add an edit to CPMS to prevent the date-coding errors from
occurring. Although we did not find evidence that these date-coding errors led to
incorrect timeliness calculations, the coding problems could lead to confusion at
hearing offices—especially at hearing offices with high error rates.

TRACKING REMANDS

Our review found ODAR was accurately tracking remands. As part of this analysis, we
also found wide variances among remand dispositions nationwide. We found that the
average processing time for remands was less than that of initial hearing cases.
Finally, SSA's performance indicators did not differentiate between initial hearings and
remands, though we see advantages to monitoring these dispositions separately.

Number of Remands Processed

We found that ODAR accurately tracked the number of remands during FYs 2005 to
2007 within its eKWI report. 8 We performed an extract of all dispositions in CPMS and
categorized the cases by type of disposition. We found that ODAR’s AC and court-
remand counts were accurately reported (see Table 1). The number of AC remand
dispositions averaged about 27,000 each year, while the court-remand dispositions
fluctuated from a high of 8,849 in FY 2005 to a low of 7,444 in FY 2006. As a percent
of the entire hearing dispositions, AC remands were about 5 percent of the dispositions
and court remands averaged 1.5 percent. Over 1,100 ALJs processed AC remand
dispositions, and over 1,000 ALJs processed court-remand dispositions. 9




8
 We did not test the total dispositions since this was done in our May 2007 Performance Indicator Audit:
Hearings and Appeals Process (A-15-06-16113).
9
    For analysis on the variations in hearing office remands processed, see Appendix C.
Page 4 - The Commissioner


                          Table 1: Remand Dispositions from FYs 2005 to 2007
                              Appeals Council Remands                                 Court Remands
                                                        Number of                                        Number of
                       Number of       As a Percent     ALJs with       Number of       As a Percent     ALJs with
   Fiscal               Remand           of Total        Remand          Remand           of Total        Remand
   Year               Dispositions     Dispositions    Dispositions    Dispositions     Dispositions    Dispositions
   2005                 27,055             5.2             1,126           8,845            1.7           1,031
   2006                 27,209             4.9             1,154           7,444            1.3           1,026
   2007                 26,967             4.8             1,178           7,745            1.4           1,076
Note: We compiled our remand disposition totals using the CPMS closed claims database, and our totals
were within 0.75 percent of ODAR’s eKWI yearly results.

We found that while remands represented approximately 6.3 percent of the hearing
dispositions in FY 2007, the remand dispositions varied by region and hearing office. In
terms of ODAR’s 10 regions, the remand dispositions as a percent of total hearing
dispositions varied from 4 to 8 percent. For example, the Seattle, New York, San
Francisco and Dallas Regions had the largest percentages, with 8 percent of their
hearing dispositions as remand dispositions. The Philadelphia Region had the lowest
percentage of total remand dispositions at 4 percent. The New York, San Francisco
and Dallas Regions had 6 percent of their hearing dispositions as AC remand
dispositions, while the Seattle Region had the highest percent of court-remand
dispositions at 3 percent (see Figure 1).
                              Figure 1: FY 2007 Regional Remand Dispositions
                                         as a Percent of Hearing Dispositions

                    Seattle

                  New York
              San Francisco                                                                            AC Remands
                                                                                                       as a Percent of
                     Dallas                                                                            Total Regional
    Regions




                                                                                                       Dispositions
                    Denver
                Kansas City                                                                            Court Remands
                   Chicago                                                                             as a Percent of
                                                                                                       Total Regional
                    Atlanta                                                                            Dispositions
                    Boston

               Philadelphia

                          0%         1%     2%        3%     4%       5%     6%        7%     8%
                                     Remands as a Percent of Hearing Dispositions
Page 5 - The Commissioner


Remand disposition variances were even greater at the hearing office level. For
example, 20 hearing offices had more than 10 percent of their entire dispositions as
remands (see Figure 2). We found the highest rate at 2 hearing offices that had about
15.5 percent of their dispositions as remands. Another 49 hearing offices had between
6 and 10 percent of their dispositions as remands, while the remaining 72 hearing
offices had between 2 and 6 percent of their dispositions as remands. 10


                        Figure 2: FY 2007 Remand Dispositions
                      as a Percent of Hearing Offices' Dispositions


                                                               20 hearing offices had
                                                                    over 10% of
                                                              dispositions as remands
             72 hearing offices had
              between 2 and 6% of
            dispositions as remands                          49 hearing offices had
                                                             between 6 and 10% of
                                                            dispositions as remands




Remand Processing Time

We found that the hearing offices were processing remands more timely than other
             11
workloads. We found that in FY 2007, the average processing time for remands was
339 days for AC remands and 369 days for court remands. This processing time is
below the Agency’s 512 days National Hearings Average Processing Time for all
dispositions. 12 As noted earlier, ODAR policy requires that remands be assigned high-
priority status when received in a hearing office so they should be held to shorter
timeliness goals than initial hearings. 13 Hearing offices are instructed to flag the
                                                         14
remands and assign them immediately for processing.




10
  See Appendix C for a further discussion of the variation of the remand workload among ODAR’s
hearing offices.
11
     We did find some exceptions, which we note in the next section of this report.
12
     The 512 days includes the remand dispositions.
13
   HALLEX I-2-8-18, Administrative Law Judge Decisions in Court Remand Cases, section B.2. and
I-2-1-55, Assignment of Service Area Cases to Administrative Law Judges, section D.
14
     SSA HALLEX I-2-1-55: Assignment of Service Area Cases to Administrative Law Judges, section D.
Page 6 - The Commissioner


Remand Performance Indicators

SSA's performance indicators did not differentiate between initial hearings and
remands, which may minimize management's ability to properly monitor this high-
priority workload. In addition, these indicators did not recognize the remand workload
and its role in both productivity and timeliness. Separate remand performance
indicators could assist with the oversight of the remand workload.

Hearing Office Productivity and Timeliness

As noted earlier, remands represent the reworking of an initial hearing, usually because
a step was not followed or an issue was not properly developed. However, their
inclusion with initial hearings in SSA’s Number of Hearings Processed performance
indicator treats these two disparate workloads as the same process. Moreover, at the
hearing office level, a greater number of remands would be seen in the system as
greater productivity.

The same situation applies to the timeliness indicator. In general, remand cases were
                                              15
processed more timely than initial hearings. However, by combining remands and
initial hearings in SSA’s National Hearings Average Processing Time performance
indicator again fails to recognize different workloads with different priorities. In addition,
a hearing office with a high volume of remands may appear to be more timely, which
may not be the best method for calculating performance indicators per hearing office.

Finally, we noted that in SSA’s Performance and Accountability Report, the data
definition for the Number of Hearings Processed and National Hearings Average
Processing Time performance indicators did not include language recognizing the role
of remands.

Remand and Performance Indicators

Because remands represent the reworking of an earlier case and remands are given
high-priority status, we believe that SSA could develop separate or subsidiary
performance indicators for remands to track the size and timeliness of these
dispositions. We discussed this issue with officials from ODAR’s Office of the Chief
Administrative Law Judge and they were receptive to the idea.

Using the FYs 2005 to 2007 CPMS closed claims database, we recalculated the current
Number of Hearings Processed and National Hearings Average Processing Time
performance indicators to determine how they might change if remands were reported
separately (see Tables 2 and 3). We believe these new numbers more accurately
portray SSA’s hearing workload and provide SSA management, the Congress and the
public with the necessary information to better understand the Agency’s workload.



15
     We provide the processing time of initial hearings in the next section.
Page 7 - The Commissioner


              Table 2: Number of Dispositions Processed Not Including Remands
     Fiscal         Number of         Number of Hearings      Difference in Number of Hearings When
     Year           Hearings           Without Remands                 Remands not Included
     2005           519,359               483,455                             35,904
     2006           558,978               524,325                             34,653
     2007           547,951               513,239                             34,712

                     Table 3: National Hearings Average Processing Time
                         Not Including the Remand Processing Time
                     Average          Average Processing         Difference in Average Processing
     Fiscal     Processing Time All      Time Without                Time when Remands were
     Year          Claims (days)       Remands (days)                   not Included (days)
     2005              443                  448                                   5
     2006              483                  492                                   9
     2007              512                  525                                  13

REMAND AND SSA’S AGED CASE INITIATIVE

We reviewed the remands that were part of SSA’s FY 2007 Reduced Aged Claim
initiative for cases that would be 1,000 days or older by the end of the FY 2007. This
initiative began as part of the overall Hearing Backlog Initiatives at SSA to eliminate the
backlog and prevent its recurrence. 16

We found approximately 2,100 remands that were processed in the Reduced Aged
Claim initiative (see Figure 3). About 86 percent of the cases under the initiative were
Initial Requests for Hearings. However, remands made up approximately 3.3 percent of
the total.




16
   In October 2007, SSA’s Commissioner issued a News Release that announced SSA had virtually
eliminated its backlog of aged disability hearing cases. ODAR defined Aged cases as those pending
1,000 days or more. The Aged claims were reduced from about 64,000 cases at the beginning of
FY 2007 to a few cases at the end of FY 2007. In FY 2008, the Agency redefined “aged cases” to include
pending claims that are at least 900 days in the hearing process.
Page 8 - The Commissioner


                          Figure 3: Distribution of 1,000 Day Old Claims
                                         by Hearing Type
                                                              Reopened Claim
                                                                179 claims            Appeals Council
         Initial Request for                                      0.27%                  Remand
               Hearing                                                                 1,514 claims
            54,587 claims                                                                 2.37%
                 85.6%
                                                                                     Court Remand
                                                                                      578 claims
                                                                                        0.91%


                                                                     Subsequent
                                                                   Hearing Request
                                                                    6,921 claims
                                                                       10.85%


To understand why some remands were taking an excessive number of days to
                                                                    17
process, we reviewed the 10 oldest remands from our 50 claim sample. The
processing time on the remands ranged from 1,204 to 1,839 days. Some of the
characteristics for these remands included the following. 18

•     Need for Additional Medical Evidence: For 6 of the 10 claims, the ALJ requested
      new psychological examinations. These claims spent extended periods of time in
                               19
      pre-hearing development.
•     Scheduling Difficulties: Of the 10 claims, 6 were rescheduled for a hearing multiple
      times (the most being 6 times) with lengthy periods before a hearing was held. 20
•     Other Issues: For one claim, the hearing was held and the ALJ made a decision,
      but hearing office managers waited almost 400 days to assign the claim to a
      Decision Writer to write the final decision.




17
   We are planning a separate audit that will examine the reasons claims become aged in the hearing
offices.
18
     For a more detailed listing of these characteristics, see Appendix D.
19
  For an explanation of the hearing office processing stages, see SSA Office of the Inspector General
report, Case Processing and Management System and Workload Management (A-12-06-26012),
June 2006.
20
  Some of the characteristics are not mutually exclusive. For instance, some of the claims that required
psychological examinations were rescheduled for hearings multiple times.
Page 9 - The Commissioner


According to ODAR executives, remands require a lot of attention at each stage of the
hearing process, including the following.

•    Pre-Hearing Development: Some remands are old, and obtaining new medical
     information takes time.
•    ALJ Review Pre-Hearing: ALJs must review all the medical history, which can be
     quite extensive. Also, ALJs must ensure the case is consistent with the remand
     order.
•    Scheduling: A new hearing with new experts must be scheduled.
•    Decision Making: Claims are older so it is more difficult to determine the date of
     alleged onset related to the disability.
•    Decision Writing: Remands are difficult to write and require extensive editing.

REMAND MANAGEMENT INFORMATION

We found incorrect remand dates in CPMS, though SSA has issued consistent
guidance and training about inputting the correct remand date into CPMS. CPMS edits
already exist to improve date-coding, and an additional automated error alert could
prevent the remand date-coding error we detected from occurring in the future. These
date-coding errors did not impact the reported average processing time.

Remand Date-Coding Errors

ODAR did not have sufficient controls over input of remand-related processing dates
into CPMS, though the relative size of the date-coding problem has declined over time.
We examined all remand dispositions in the CPMS database during FYs 2005 to 2007
and found that most of the hearing offices were miscoding the remand dates in CPMS.
Specifically, hearing office staff input the wrong dates in CPMS for remand claims—the
same date was being used for the Initial Request for Hearing Date and the Remand
Date. 21 Nationwide, these date-coding errors ranged from 21 to 38 percent of all AC
remands and from 20 to 25 percent of all court remands. We also found that the
number of date-coding errors had consistently decreased during the 3-year period we
reviewed, from a high of about 38 percent of all AC remands in FY 2005 to about
21 percent in FY 2007 (see Table 4), indicating the coding has improved over time.
The court-remand date-coding error rate has also decreased from about 25 percent in
FY 2005 to about 20 percent in FY 2007.




21
   The processing time of remands and regular cases is captured in the SSA Hearings Average
Processing Time performance indicator. For pending claims, both the the Initial Request for Hearing Date
and the Remand Date can be entered and changed by hearing office staff. However, the Initial Request
for Hearing Date should never be the same as the Remand Date.
Page 10 - The Commissioner


         Table 4: Date-Coding Errors in Remand Dispositions (FYs 2005 – 2007)
                     Appeals Council Remands                           Court Remands
                  Number of      Number of                   Number of      Number of
                   Remand       Date-Coding    Error Rate     Remand       Date-Coding   Error Rate
 Fiscal Year     Dispositions      Errors      (percent)    Dispositions      Errors     (percent)
      2005        27,055         10,398            38         8,845           2,205         25
      2006        27,209          6,817            25         7,444           1,531         21
      2007        26,967          5,692            21         7,745           1,521         20

We conducted additional analysis on the hearing offices with date-coding errors in
FY 2007. For instance, we found that 87 percent of the hearing offices had at least one
date-coding error among their remand dispositions. In terms of date-coding errors as a
percent of a hearing office’s dispositions, we found that 18 hearing offices had date-
coding error rates of 90 percent or greater, 22 12 hearing offices had between a 50 and
89 percent date-coding error rate, and 93 hearing offices had between a 1 and
49 percent error rate. The remaining 18 hearing offices had no date-coding errors
(see Figure 4).


                         Figure 4: Hearing Offices by Volume of Coding Errors
                            FY 2007 Appeals Council Remand Dispositions

                                     No Errors              90% and Greater
                                    (18 offices)              (18 offices)

                                                                        50-89%
                                                                      (12 offices)




                                         1-49%
                                       (93 offices)


According to ODAR officials, the remand date-coding error occurred because remands
represented a smaller workload at the hearing office, and hearing office staff was
unsure what date to enter into CPMS for remands. When CPMS was installed, hearing
                                                                               23
office employees received training on how to input remand dates into CPMS.


22
     We provided the data associated with these 18 hearing offices to ODAR management.
23
  In the CPMS Training Manual, Module 3, page 28, hearing office employees are instructed to: "Enter the
date the Appeals Council sent the claim back to the hearing office (Appeals Council Remand Date) or in
the case of a court remand (Court Remand Date).”
Page 11 - The Commissioner


Date-Coding Guidance

When we initially discovered the remand date-coding error as part of our preliminary
analysis, we notified officials at ODAR’s Office of the Chief Administrative Law Judge.
              24
In July 2007, ODAR’s Chief ALJ issued a reminder to all hearing office employees
about the procedures for entering the correct date for remands into CPMS. We
reviewed the remands that were closed for the 2 months after the Chief ALJ’s reminder
and determined that the remands with date-coding errors declined slightly to about
17 percent. 25

In July 2008, we spoke to the hearing office directors at five of the hearing offices that
had the highest remand date-coding error rates in FY 2007. These directors were
uncertain about which date to input into CPMS for remands leading to uncertainty about
the process.

We asked ODAR if the closed remands with date-coding errors could be corrected so
that the accuracy of the CPMS electronic files could be improved. However, ODAR
officials told us closed claims in CPMS can only be viewed and not changed. In our
discussions with ODAR about preventing the remand date-coding error from occurring
in the future, ODAR suggested that the correct dates could be propagated automatically
from AC-level data into CPMS using the Office of Appellate Operations Appeals Review
Processing System, rather than hearing office staff manually inputting the data into
CPMS. The Appeals Review Processing System is a new Intranet case processing
system that handles SSA’s administrative appeals process at the AC level. ODAR staff
stated that this automated action will require system enhancements.

Management Reports at Hearing Offices

At the hearing office level, managers and staff use the Auxiliary Monthly Activity Report
and the CPMS Workload Listings for tracking and managing AC and court-remand
claims. These Workload Listings illustrate the pending remand claims in the hearing
office. The Listings automatically sort the remands by the Remand Date (age of the
remand) and also includes other identifying information on the claim including the status
and stage of processing.

Before our audit work, the CPMS Workload Listings for remands were sorted by the
Initial Request for Hearing Date on the claim and not on the Remand Date. This sorting
did not accurately show the true age of the remand, leading to incorrect management
information when identifying the oldest remands. In a recently updated CPMS Release,



24
  In December of 2004, the Chief ALJ issued a memorandum to its Regional Management Teams to
ensure that the correct remand date was entered into CPMS.
25
  As noted in Table 4, the overall date-coding error rate for FY 2007 was 21 percent for AC remands and
20 percent for court remands.
Page 12 - The Commissioner


the remand Workload Listings now sort the remands by the Remand Date instead of by
the Initial Request for Hearing Date, which provides the hearing offices with more
accurate management information on the true age of the remands.

CPMS Edits

When remand case information is placed into CPMS, the system has a date-checking
function that creates an error alert for specific types of date combinations. For
instance, an Application Date cannot be later than the Hearing Request Date. If
hearing office staff enters an Application Date that is later than the Hearing Request
Date, an error alert appears on the screen notifying staff that these dates need to be
reviewed. Moreover, CPMS will not allow the claim to be added until the hearing office
staff changes the Application Date to an earlier date than the Hearing Request Date.
However, our review of these edits found that CPMS did not have an error alert if the
Initial Hearing Request Date was the same as the Remand Date. ODAR could improve
the accuracy of CPMS data by adding another error alert associated with the types of
errors we identified in this report.

Date-Coding Errors and Timeliness

We did not find any evidence that the date-coding error affected SSA’s National
Hearings Average Processing Time performance indicator. Staff in SSA’s Office of
Systems, which generates the performance indicator data noted that they were not
relying on these same date fields for their calculations. However, these errors have
created inaccuracies in CPMS electronic files and may have created confusion during
case processing at the hearing offices.

CONCLUSION AND RECOMMENDATIONS
We found that ODAR accurately tracked the number of remands processed nationally,
and the average processing time for remands was lower than the processing time for all
dispositions, indicating remands were being given priority. However, given the size and
impact of the remand workload, we believe the Agency’s performance indicators could
better differentiate between initial hearings and remands and more accurately portray
SSA’s hearing workload. In addition, we found that not all remands were being given
priority treatment. For example, approximately 2,100 remands in the Aged Claim
initiative were approaching or exceeded 1,000 days of processing time. Finally, we
found that the remand information in CPMS contained incorrect processing dates for
approximately 87 percent of the hearing offices, indicating additional training may be
necessary at hearing offices. In addition, we found SSA could add an edit to CPMS to
prevent the date-coding errors from occurring. Although we did not find evidence that
these date-coding errors led to incorrect timeliness calculations, the coding problems
could lead to confusion at hearing offices—especially at hearing offices with high error
rates for date-coding.
Page 13 - The Commissioner


To improve management controls over the tracking and timely processing time of
remands, we recommend SSA:

1. Consider establishing separate or subsidiary performance indicators related to
   remand productivity and timeliness to assist the users of ODAR data. If SSA
   decides not to establish a separate indicator for remands, the Agency should update
   the data definition for these performance indicators explaining the role of remands.

2. Provide refresher training to hearing offices that have high date-coding error rates
   when inputting the remands into CPMS.

3. Add an edit to CPMS so that an error alert is generated if the Initial Request for
   Hearing Date is the same as the Remand Date.

4. As soon as practical, automate date-coding within CPMS to eliminate manual errors.

5. Ensure remands are closely monitored by management and processed according to
   ODAR’s policy.

AGENCY COMMENTS AND OIG RESPONSE
The Agency partially concurred with the first recommendation and fully concurred with
the remaining four recommendations. In terms of the first recommendation, the Agency
stated that establishing a new and separate performance indicator to capture remand
productivity may not be useful or advisable. However, the Agency updated the data
definitions to include remands for three hearing-level performance indicators. See
Appendix E for the full text of the Agency’s comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Hearing Office Variations in Remand Processing
APPENDIX D – Characteristics of Aged Remands
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
AC       Appeals Council
ALJ      Administrative Law Judge
CPMS     Case Processing and Management System
eKWI     Electronic Key Workload Indicator
FY       Fiscal Year
HALLEX   Hearings, Appeals and Litigation Law Manual
ODAR     Office of Disability Adjudication and Review
OIG      Office of the Inspector General
SSA      Social Security Administration
                                                                     Appendix B

Scope and Methodology
To meet our objective, we:

•   Reviewed hearing office guiding principles and procedural guidance documented in
    the Office of Disability Adjudication and Review’s (ODAR) Hearings, Appeals and
    Litigation Law manual, the Case Processing and Management System (CPMS)
    Training Manual and the 2006 Legal Assistant Training Manual.

•   Reviewed prior Social Security Administration (SSA) Office of the Inspector General
    and Government Accountability Office reports.

•   Reviewed ODAR’s electronic Key Workload Indicator (eKWI) reports, CPMS
    National Ranking Reports, SSA’s Tracking Reports and SSA’s Fiscal Year (FY)
    2007 Performance and Accountability Report.

•   Compiled remand statistics using ODAR’s FY 2007 eKWI report and CPMS closed
    claim databases for FYs 2005 through 2007.

•   Analyzed the FY 2005 through 2007 CPMS remand data to ensure appropriate
    dates were being used for the initial hearings and remands.

•   Reviewed the layout of the information in the CPMS input and query screens to
    determine what information was available to users and whether the system was
    being appropriately used to assist with remand processing.

•   Reviewed Chief Administrative Law Judge memorandums related to remand
    processing.

•   Reviewed SSA’s Reduced Aged Claim initiative for FYs 2007 and 2008 and SSA’s
    Plan to Eliminate the Hearings Backlog and Prevent its Recurrence.

•   Contacted ODAR personnel in Falls Church, Virginia, and the hearing offices to
    learn about the remand process and discuss the results of our audit work. We also
    shared the listing of cases with date-coding errors so that ODAR management could
    review our findings and take appropriate actions.




                                          B-1
We found the disposition data used in our review to be sufficiently reliable to meet our
audit objective with the exception of those data issues discussed in the body of this
report. The entity audited was the Office of the Deputy Commissioner for Disability
Adjudication and Review. We conducted this performance audit from September 2007
through May 2008 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




                                          B-2
                                                                                Appendix C

Hearing Office Variations in Remand
Processing
In our review of the Fiscal Year (FY) 2007 remand information, we found that two
hearing offices that had more than 10 percent of their FY 2007 hearing dispositions as
remands were in McAlester, Oklahoma and San Bernardino, California (see
Table C-1). Of the hearing offices with more than 15 percent of their FY 2007
dispositions as remands, the Dallas (north) Hearing Office processed the most AC
remands with 515 claims, followed by the Cleveland Hearing Office with 468 claims.
Within this same group, the San Bernardino Hearing Office processed the most court
remands with 263 claims, followed by the Seattle Hearing Office with 200 claims.

Table C-1: Hearing Offices with FY 2007 Remand Dispositions that were Greater
             than 10 Percent of Their Total Hearing Dispositions1
                                                                            Total
                                                Number of                  Hearing      Remands as a
                                                 Appeals     Number of   Dispositions     Percent of
                                                 Council       Court      Including        Hearing
             Hearing Office Name                Remands      Remands      Remands        Dispositions
 McAlester, Oklahoma                              105           55          1,032          15.5
 San Bernardino, California                       270          263          3,461          15.4
 Long Beach, California                           222          116          2,334          14.5
 Downey, California                               197           99          2,118          14.0
 Queens, New York                                 316          130          3,274          13.6
 Hattiesburg, Mississippi                         423            6          3,378          12.7
 Los Angeles (downtown), California               206          110          2,644          12.0
 Colorado Springs, Colorado                       269           71          2,854          11.9
 Fort Worth, Texas                                436           78          4,440          11.6
 Middlesboro, Kentucky                            127          138          2,387          11.1
 Newark, New Jersey                               378          130          4,592          11.1
 Orange, California                               143           82          2,046          11.0
 Cleveland, Ohio                                  468          106          5,230          11.0
 Bronx, New York                                  344          105          4,339          10.3
 Dover, Delaware                                  107           62          1,646          10.3
 Houston, Texas                                   472           73          5,315          10.3
 Atlanta, Georgia                                 347           92          4,306          10.2
 Washington, District of Columbia                 167          117          2,796          10.2
 Dallas (north), Texas                            515           65          5,750          10.1
 Seattle, Washington                              446          200          6,423          10.0
Note: We compiled the remand disposition data using the Social Security Administration’s FY 2007 Case
Processing and Management System database of closed claims.
                                                                                   Appendix D

Characteristics of Aged Remands
We obtained a list of the claims identified in the Social Security Administration’s (SSA)
                                1
Reduced Aged Claim initiative. The list contained over 2,100 remands that were over
1,000 days old at the time of their final disposition. 2 We randomly selected 50 remands
and selected the 10 oldest remands from the 50 claims sampled.

The processing times on the remands ranged from 1,204 days to 1,839 days
(see Table E-1). Some of the major characteristics about these remands include the
following.

•   Need for Additional Medical Evidence: For 6 of the 10 claims, the ALJ requested
    new psychological examinations. These claims spent extended periods of time in
    pre-hearing development. 3
•   Scheduling Difficulties: Of the 10 claims, 6 were rescheduled for a hearing multiple
    times (the most being 6 times) with lengthy periods before a hearing was held. 4
•   Other Issues: For one claim, the hearing was held and the ALJ made a decision,
    but hearing office managers waited almost 400 days to assign the claim to a
    Decision Writer to write the final decision.




1
  In October 2007, SSA’s Commissioner issued a News Release that announced SSA had virtually
eliminated its backlog of aged disability hearings cases. Aged cases, defined as cases pending
1,000 days or more, were reduced from about 64,000 cases at the beginning of Fiscal Year (FY) 2007 to a
few cases at the end of FY 2007. In FY 2008, the Agency redefined “aged cases” to include pending
claims that were at least 900 days in the hearing process.
2
  We are in the planning stages of a separate audit that will examine the reasons claims become aged in
the hearing offices.
3
  For an explanation of the hearing office processing stages, see SSA Office of the Inspector General
report, Case Processing and Management System and Workload Management (A-12-06-26012),
June 2006.
4
 Some of the characteristics are not mutually exclusive. For instance, some of the claims that required
psychological examinations were rescheduled for hearings multiple times.


                                                   D-1
   Table D-1: Reasons Why Remand Claims Took over 1,000 Days to Process
 Disability                 Psychological      Rescheduled                             Age of
 Indicator     Decision     Examination        for a Hearing   Development Delays      Claim
   Other      Unfavorable       Yes          Rescheduled       NA                      1,839
Fracture of                                  3 times,
  Bones                                      elapsed time of
                                             1,351 days
 Affective    Favorable         Yes          Rescheduled       Two psychiatric         1,521
 Disorder                                    2 times,          examinations
                                             elapsed time of
                                             1,345 days
 Affective    Unfavorable        No          Rescheduled       Hearing office          1,406
 Disorder                                    6 times,          requested medical
                                             elapsed time of   evidence five
                                             963 days          different times
 Affective    Favorable         Yes          Rescheduled       Post-development        1,350
 Disorder                                    3 times,          409 days
                                             elapsed time of
                                             678 days
 Affective    Favorable         Yes          No scheduling     Pre-hearing             1,308
 Disorder                                    problem           development for
                                                               1,204 days
  Back        Unfavorable       Yes          Rescheduled       Hearing office had to   1,795
 Disorder                                    5 times,          wait 761 days for a
                                             elapsed time of   psychological
                                             1,014 days        examination
  Back        Unfavorable       Yes          No scheduling     ALJ Review –            1,309
 Disorder                                    problem           Pre-Hearing for
                                                               464 days
                                                               Post-hearing
                                                               development for
                                                               385 days
Rheumatoid    Unfavorable        No          Rescheduled       Unassigned writing      1,204
  Arthritis                                  3 times,          for 398 days
                                             elapsed time of
                                             487 days
   N/A        Abandoned          No          No scheduling     Pre-hearing             1,427
                                             problem           development for
                                                               1,177 days
   N/A        Abandoned          No          No scheduling     Pre-hearing             1,429
                                             problem           development for
                                                               1,137 days




                                            D-2
                  Appendix E

Agency Comments
                                  SOCIAL SECURITY
MEMORANDUM

Date:        September 18, 2008                                                    Refer To:   S1J-3

To:          Patrick P. O'Carroll, Jr.
             Inspector General

From:        David V. Foster /s/
             Executive Counselor to the Commissioner

Subject:     Office of the Inspector General (OIG) Draft Report, “Hearing Office Remand Processing”
             (A-12-08-28036)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the report
           findings and recommendations is attached.

           Please let me know if we can be of further assistance. Direct inquiries to Ms. Candace
           Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                  E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "HEARING OFFICE REMAND PROCESSING" (A-12-08-28036)

Thank you for the opportunity to review and comment on the draft report. Our response to the
specific recommendations is provided below.

Recommendation 1

Consider establishing separate or subsidiary performance indicators related to remand
productivity and timeliness to assist the users of Office of Disability Adjudication and Review
(ODAR) data. If the Social Security Administration (SSA) decides not to establish separate
indicators for remands, the agency should update the data definition for these performance
indicators explaining the role of remands.

Comment

We partially agree. Establishing a new and separate performance indicator to capture remand
productivity may not be useful or advisable. The report already finds that ODAR is accurately
tracking this workload and addressing it as a priority. In addition, when establishing a new
performance indicator, the responsible component must consider: 1) the resources necessary to
process the workload; 2) whether it can be quantified for budget submissions; 3) whether a target
can be identified and met; and 4) whether it is useful to the component and to external audiences.
Furthermore, as with receipts, the number of remands each year is difficult to predict, which
makes it difficult to set a target. Finally, the agency considered performance indicators
associated with remands in fiscal year (FY) 2006, but decided not to pursue them.

On August 8, 2008, we updated the data definitions to include remands for the following hearing-
level performance indicators: 1) achieved budgeted goal for SSA hearings processed (at or above
the FY 2008 goal); 2) maintain the number of SSA hearings pending (at or below the
FY 2008 goal); and 3) achieve the budgeted goal for average processing time for hearings (in
days). The FY 2008 Performance and Accountability Report and FY 2010 Annual Performance
Plan will reflect the new data definitions.

Recommendation 2

Provide refresher training to hearing offices that have high date-coding error rates when inputting
the remands into the Case Processing Management System (CPMS).




                                               E-2
Comment

We agree. However, we do not believe the problem is widespread and, accordingly, we will
handle isolated incidences of coding errors through headquarters and regional oversight. We
previously issued a Chief Judge Bulletin (CJB) that clearly explains the correct instructions; we
also provided training material to OIG. Data shows the problem is resolving. Our CJB can be
found at:
http://policynet.ba.ssa.gov/reference.nsf/1bb8ac5165f7ca5d85256c230074491b/7b3b4308945e55
3f85257322004c7423!OpenDocument

Recommendation 3

Add an edit to the CPMS so that an error alert is generated if the Initial Request for Hearing Date
is the same as the Remand Date.

Comment

We agree. While instructions have been distributed to hearing offices on how to properly code
CPMS entries for remands, an edit to prevent the hearing request and remand dates from being
keyed as the same date is a good idea. This is technically feasible and can be added to CPMS.
We will include this as part of our Hearing Office Productivity Enhancements CPMS project
Resource Accounting System (RAS) #2114 for the March 2009 release. It can be folded into the
current work year (WY) allocation. This will improve the accuracy of management information
(MI) and ensure remands are processed in a more expedient manner. Additionally, now that we
have the new Appeals Review Processing System (ARPS), propagation of the correct remand
dates will be possible on electronic cases and has been approved by the Information Technology
Advisory Board (ITAB) for future modifications.

Recommendation 4

As soon as practical, automate date-coding within CPMS to eliminate manual errors.

Comment

We agree. Automation of date-coding is a good idea and would be beneficial in reducing remand
date-coding errors. As indicated above, now that we have ARPS, propagation of the correct
dates will be possible on electronic cases and was approved by ITAB for future modifications.
When the Appeals Council (AC) remands a case to the hearing office and the user reactivates the
case, CPMS will use the date from the AC as the remand date instead of the system date. It is
complicated and not feasible to implement this for non-electronic cases as there is no easy way to
match the AC case with the CPMS case on the manually established cases. Additionally, as
more cases are electronically processed, the number of date coding errors will continue to drop.
This software change will be included in the March 2009 release of CPMS project RAS # 2114.
It can be included under the current WY allocation. Any edits made to the CPMS programmatic
system to ensure that remand dates are correct will improve the accuracy of the MI that we use.


                                                E-3
Recommendation 5

Ensure remands are closely monitored by management and processed according to ODAR’s
policy.

Comment

We agree. ODAR will track remands using workloads listing in CPMS to ensure remands are
given priority and processed consistent with policy.




                                           E-4
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division (312) 353-0331

   Nicholas Milanek, Audit Manager, Falls Church Office (703) 578-8844

Acknowledgments

In addition to those named above:

   Faisal Khan, Auditor

   Yaquelin Lara, Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-12-08-28036.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
